<html>
<title> - DOLLARS AGAINST DEMOCRACY: DOMESTIC TERRORIST FINANCING IN THE AFTERMATH OF INSURRECTION</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]






 
                  DOLLARS AGAINST DEMOCRACY: DOMESTIC

                       TERRORIST FINANCING IN THE

                       AFTERMATH OF INSURRECTION

=======================================================================

                            VIRTUAL HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY,

                       INTERNATIONAL DEVELOPMENT

                          AND MONETARY POLICY

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 25, 2021

                               __________

       Printed for the use of the Committee on Financial Services

                            Serial No. 117-6
                            
                            
                            
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                
 
 
 
                              ______                       

 
               U.S. GOVERNMENT PUBLISHING OFFICE 
43-993 PDF              WASHINGTON : 2021                            
                            
                            
                            

                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                 MAXINE WATERS, California, Chairwoman

CAROLYN B. MALONEY, New York         PATRICK McHENRY, North Carolina, 
NYDIA M. VELAZQUEZ, New York             Ranking Member
BRAD SHERMAN, California             FRANK D. LUCAS, Oklahoma
GREGORY W. MEEKS, New York           BILL POSEY, Florida
DAVID SCOTT, Georgia                 BLAINE LUETKEMEYER, Missouri
AL GREEN, Texas                      BILL HUIZENGA, Michigan
EMANUEL CLEAVER, Missouri            STEVE STIVERS, Ohio
ED PERLMUTTER, Colorado              ANN WAGNER, Missouri
JIM A. HIMES, Connecticut            ANDY BARR, Kentucky
BILL FOSTER, Illinois                ROGER WILLIAMS, Texas
JOYCE BEATTY, Ohio                   FRENCH HILL, Arkansas
JUAN VARGAS, California              TOM EMMER, Minnesota
JOSH GOTTHEIMER, New Jersey          LEE M. ZELDIN, New York
VICENTE GONZALEZ, Texas              BARRY LOUDERMILK, Georgia
AL LAWSON, Florida                   ALEXANDER X. MOONEY, West Virginia
MICHAEL SAN NICOLAS, Guam            WARREN DAVIDSON, Ohio
CINDY AXNE, Iowa                     TED BUDD, North Carolina
SEAN CASTEN, Illinois                DAVID KUSTOFF, Tennessee
AYANNA PRESSLEY, Massachusetts       TREY HOLLINGSWORTH, Indiana
RITCHIE TORRES, New York             ANTHONY GONZALEZ, Ohio
STEPHEN F. LYNCH, Massachusetts      JOHN ROSE, Tennessee
ALMA ADAMS, North Carolina           BRYAN STEIL, Wisconsin
RASHIDA TLAIB, Michigan              LANCE GOODEN, Texas
MADELEINE DEAN, Pennsylvania         WILLIAM TIMMONS, South Carolina
ALEXANDRIA OCASIO-CORTEZ, New York   VAN TAYLOR, Texas
JESUS ``CHUY'' GARCIA, Illinois
SYLVIA GARCIA, Texas
NIKEMA WILLIAMS, Georgia
JAKE AUCHINCLOSS, Massachusetts

                   Charla Ouertatani, Staff Director
           Subcommittee on National Security, International 
                    Development and Monetary Policy

                  JIM A. HIMES, Connecticut, Chairman

JOSH GOTTHEIMER, New Jersey          FRENCH HILL, Arkansas, Ranking 
MICHAEL SAN NICOLAS, Guam                Member
RITCHIE TORRES, New York             LEE M. ZELDIN, New York
STEPHEN F. LYNCH, Massachusetts      ROGER WILLIAMS, Texas
MADELEINE DEAN, Pennsylvania         TOM EMMER, Minnesota
ALEXANDRIA OCASIO-CORTEZ, New York   WARREN DAVIDSON, Ohio
JESUS ``CHUY'' GARCIA, Illinois      ANTHONY GONZALEZ, Ohio
JAKE AUCHINCLOSS, Massachusetts      VAN TAYLOR, Texas, Vice Ranking 
                                         Member
                                         
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    February 25, 2021............................................     1
Appendix:
    February 25, 2021............................................    35

                               WITNESSES
                      Thursday, February 25, 2021

Boukadoum, Iman, Senior Program Manager, Fighting Hate and Bias, 
  The Leadership Conference on Civil and Human Rights............     4
Brooks, Lecia, Chief of Staff, Southern Poverty Law Center.......     6
Gartenstein-Ross, Daveed, CEO, Valens Global.....................    12
Glaser, Daniel L., Global Head, Jurisdictional Services, and Head 
  of Washington, DC Office, K2 Integrity; Senior Advisor at the 
  Foundation for Defense of Democracies; and former Assistant 
  Secretary for Terrorist Financing and Financial Crimes, U.S. 
  Department of the Treasury.....................................     8
Rogers, Daniel, Co-Founder and Chief Technology Officer, Global 
  Disinformation Index...........................................    10

                                APPENDIX

Prepared statements:
    Boukadoum, Iman,.............................................    36
    Brooks, Lecia,...............................................    42
    Gartenstein-Ross, Daveed.....................................    58
    Glaser, Daniel L.............................................    97
    Rogers, Daniel...............................................   102


                  DOLLARS AGAINST DEMOCRACY: DOMESTIC

                       TERRORIST FINANCING IN THE

                       AFTERMATH OF INSURRECTION

                              ----------                              


                      Thursday, February 25, 2021

             U.S. House of Representatives,
                 Subcommittee on National Security,
                          International Development
                               and Monetary Policy,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 10:02 a.m., 
via Webex, Hon. Jim A. Himes [chairman of the subcommittee] 
presiding.
    Members present: Representatives Himes, Gottheimer, San 
Nicolas, Torres, Lynch, Dean, Ocasio-Cortez, Garcia of 
Illinois, Auchincloss; Hill, Zeldin, Williams of Texas, Emmer, 
Davidson, Gonzalez of Ohio, and Taylor.
    Ex officio present: Representative Waters.
    Chairman Himes. The Subcommittee on National Security, 
International Development and Monetary Policy will come to 
order. Without objection, the Chair is authorized to declare a 
recess of the subcommittee at any time. Also, without 
objection, members of the full Financial Services Committee who 
are not members of this subcommittee are authorized to 
participate in today's hearing.
    As a reminder, I ask all Members to keep themselves muted 
when they are not being recognized by the Chair. This will 
minimize disturbances while Members are asking questions of our 
witnesses. The staff has been instructed not to mute Members, 
except when a Member is not being recognized by the Chair and 
there is inadvertent background noise.
    Members are also reminded that they may only participate in 
one remote proceeding at a time. If you are participating 
today, please keep your camera on. And if you choose to attend 
a different remote proceeding, please turn your camera off.
    If Members wish to be recognized during the hearing, please 
identify yourself by name to facilitate recognition by the 
Chair.
    Today's hearing is entitled, ``Dollars Against Democracy: 
Domestic Terrorist Financing in the Aftermath of 
Insurrection.''
    I now recognize myself for 4 minutes to give an opening 
statement.
    As we heard from Merrick Garland during his confirmation 
hearing earlier this week, the country faces a, ``more 
dangerous period in the wake of January 6th than we did after 
the Oklahoma City bombing, the single deadliest act of domestic 
terrorism in American history.'' This threat is real and it is, 
therefore, incumbent on all of us on this subcommittee to look 
at the ways that these extremist groups fund not only their 
violent activities, but their recruitment and radicalization 
efforts as well.
    In the wake of the attacks of September 11th, we recast the 
entire Federal Government, and worked feverishly to defund 
terrorist extremes. To effectively disrupt domestic extremist 
groups, we need to better understand their financing.
    In today's hearing, I want us to focus on three important 
areas.
    First, to better understand how these groups are raising 
money. Unlike ISIS, for example, these organizations are not 
pyramid-shaped, where funding comes from a handful of easily 
disruptible areas. An online fundraising drive for a legitimate 
charity, and one that helps support an extremist group, can 
look very similar. Some extremist groups are eschewing the 
traditional banking sector in favor of cryptocurrency, thereby 
avoiding our traditional methods of disrupting extremist 
financing.
    Second, to give serious thought to where our efforts on 
disruption are best spent. Terrorist attacks rely on their 
asymmetrical nature to be effective. Many of the domestic 
terrorist attacks in recent memory have been self-funded. The 
bomb constructed by Timothy McVeigh cost less than $5,000. 
However, recruitment and radicalization efforts are often more 
resourced and time-intensive. Targeting these efforts may 
provide an avenue for preventing future attacks.
    Third, we need to be conscientiously mindful of the civil 
liberties concerns at play here. Unlike international extremist 
groups, law enforcement is constrained by the Constitution when 
dealing with domestic extremists. Balancing the desire to give 
law enforcement the tools necessary to disrupt these groups, 
with the need to respect the rights of all Americans in the 
Constitution to which we have all pledged an oath, is 
essential.
    I will quickly note, in the spirit of my opening statement 
and the subcommittee's first hearing, that this hearing is not 
about, ``what-aboutism'' or ``both-sidesism.'' The topic is 
domestic terrorism, and it must be divorced from any specific 
ideology.
    While we all lived through a brutal event on January 6th 
undertaken by right-wing extremists, no location on the 
political spectrum has a monopoly on extremism or violence. 
Focusing on one group to score political points doesn't do 
anything to help us solve the very real problem at hand, a 
problem that could get worse over time, as January 6th 
demonstrated to so many groups that they could, in fact, make 
the news and be effective in their dark ways.
    Finally, I would like to thank our panel of witnesses whose 
expertise and experience in their respective fields is 
unparalleled. I sincerely appreciate your assistance in 
tackling this difficult issue.
    The Chair now recognizes the ranking member of the 
subcommittee, Mr. Hill, for 5 minutes for an opening statement.
    Mr. Hill. I thank the chairman, and I appreciate you 
holding this hearing, and for your opening statement, and I 
appreciate the witnesses lending their expertise today.
    I know this is a topic that touches all members on this 
subcommittee and across the Capitol, for the events that 
transpired on January 6th affected all of us deeply. While we 
have discussed domestic terrorism financing in the past, this 
hearing will hit closer to home than the previous ones.
    I look forward to the constructive dialogue on this topic 
as a way to bring both sides of the aisle closer together. The 
Majority has made the decision to convene this hearing in the 
aftermath of the horrific destruction and mayhem of January 
6th. All of us are saddened and outraged by the actions of 
those involved in that evil and devastating act. All of us 
condemn the rioters' destruction and malice towards the 
peaceful conduct of the business of democracy here in the 
people's House.
    But I would be remiss if I didn't note that extremist 
events like this have been caused by both the far left and the 
far right all across our country. Even this week, in Senate 
testimony, we are learning important details about the 
premeditation of the attack and the weakness in the Capitol 
security planning and preparation.
    To honor the rank and file men and women of law 
enforcement, I have sponsored a resolution with my good friend, 
Representative Ed Perlmutter, to celebrate the bravery of the 
Capitol Police, the D.C. Metropolitan Police, and other law 
enforcement officers. These men and women protected us with 
courage, and they should not be overlooked. I am pleased to 
report that this resolution has strong bipartisan support, with 
over 133 co-sponsors.
    It is important to note, though, that this is not the first 
time that our Nation's Capitol and elected officials have been 
targeted. I will spare the committee a long history lesson, but 
I will mention that prior to the events of January 6th, there 
have been 6 other attacks on the Capitol involving extremists, 
ranging from White supremacists to anarchists. Most in this 
room will remember the members of this committee and our 
colleagues who were attacked during the Congressional baseball 
game practice in 2017, committed by a terrorist fueled by rage 
against Republicans.
    Unfortunately, as the chairman said, extremism, on both the 
radical left and radical right in our country, is not new, and 
it affects all Americans. It is important that we investigate 
the funding for such attacks and mitigate extremists' ability 
to access it. Cutting off funding will inhibit their ability to 
grow and expand their abilities and scope.
    We need to craft bipartisan solutions to ensure that the 
violence and hatred that fuel the attacks does not happen 
again. We must use our existing extensive laws and law 
enforcement operation and cooperation to identify and prosecute 
those on the left and right who attempt to use terror and 
violence.
    I appreciate the chairman, and in a final comment, I would 
hope--I see our distinguished Full Committee Chair on the 
call--I would urge our Chair, when we are in Washington to--I 
would invite her consideration of an in-person hearing.
    And with that, Mr. Chairman, I yield back the balance of my 
time.
    Chairman Himes. The Chair thanks the ranking member for his 
statement, and now recognizes the Chair of the Full Committee, 
the gentlewoman from California, Chairwoman Maxine Waters, for 
1 minute.
    Chairwoman Waters. Thank you very much, Mr. Chairman. I 
think this is extraordinarily important. I thank you for 
holding this hearing.
    We are here against the backdrop of the January 6th 
insurrection, a deplorable, yet predictable, display of White 
supremacists such as the Proud Boys, the Oath Keepers, QAnon, 
and others, and nationalist violence incited by President Trump 
against the members of this body and against democracy itself.
    Unfortunately, the violence that we saw on the 6th is not 
new, but arises from our nation's legacy of violence towards 
people of color, religious minorities, LGBTQ persons, women, 
and immigrants; from the KKK and lynching, to the terror in 
Charlottesville, Pittsburgh, El Paso, and Escondido, White 
supremacists and nationalism are not new threats.
    But there is hope. The radicalization, recruitment, 
training, and operations that made January 6th possible also 
had a money trail, which can and must be targeted to turn the 
tide against future attacks.
    Thank you. And I yield back the balance of my time.
    Chairman Himes. Thank you, Madam Chairwoman.
    We now welcome the testimony of our distinguished 
witnesses, and we have five witnesses today. First, Ms. Iman 
Boukadoum, who is a Senior Program Manager at The Leadership 
Conference on Civil and Human Rights; second, Ms. Lecia Brooks, 
who is Chief of Staff at the Southern Poverty Law Center; 
third, Mr. Daniel Glaser, who is Global Head of Jurisdictional 
Services and head of the Washington, D.C., office of K2 
Integrity, a Senior Advisor at the Foundation for Defense of 
Democracies, and a former Assistant Secretary for Terrorist 
Financing and Financial Crimes at the U.S. Department of the 
Treasury; fourth, Dr. Daniel Rogers, who is co-founder and 
chief technology officer of the Global Disinformation Index; 
and fifth, Dr. Daveed Gartenstein-Ross, who is chief executive 
officer at Valens Global.
    Witnesses are reminded that your oral testimony will be 
limited to 5 minutes. You should be able to see a timer on your 
screen that will indicate how much time you have left, and a 
chime will go off at the end of your time. I would ask that you 
be mindful of the timer, and quickly wrap up your testimony if 
you hear the chime, so that we can be respectful of both the 
witnesses' and the committee members' time.
    And without objection, your written statements will be made 
a part of the record.
    Ms. Boukadoum, you are now recognized for 5 minutes to give 
an oral presentation of your testimony.

STATEMENT OF IMAN BOUKADOUM, SENIOR MANAGER, FIGHTING HATE AND 
   BIAS, THE LEADERSHIP CONFERENCE ON CIVIL AND HUMAN RIGHTS

    Ms. Boukadoum. Chairman Himes, Ranking Member Hill, and 
distinguished members of the subcommittee, thank you for 
holding this timely hearing today.
    Last month's violent insurrection, heavily fueled by White 
supremacy and White nationalism, shocked the world, but it 
didn't shock me. It didn't shock my community or other 
marginalized communities, because we are not new to White 
nationalist violence. Personally, as a Muslim and an Algerian 
American, I appreciate the opportunity to be heard today as we 
wrestle with the aftermath of this horrific day.
    We echo the sense of urgency shared by many of you today in 
Congress regarding the very real threat of White nationalist 
violence, and I would just note that our coalition has been 
ringing the alarm relating to White nationalist violence for 
generations.
    We know, however, that even well-intentioned national 
security laws are invariably weaponized against Black, Brown, 
and Muslim communities, and that White nationalist violence is 
not prioritized, making that policy failure the fundamental 
reason for what transpired on January 6th, not a lack of legal 
authority.
    For this reason, we oppose any legislation that would 
create new charges for domestic terrorism or any enhanced or 
additional criminal penalties. The Federal Government, 
including the Treasury Department, has many tools at its 
disposal to investigate. And also, the FBI and DOJ have 50 
terrorism-related statutes and over a dozen criminal statutes 
that they can use. They just need to use them to target White 
nationalist violence.
    And, of course, we know that White nationalist violence and 
violence inspired by Muslims or ISIS and al-Qaida-inspired 
violence is very differently treated in this country. Global 
policing of charitable giving by Muslims, for example, in my 
community, which is a core part of my faith, has led to the 
effective forfeiting of our First Amendment rights.
    The failure to prioritize White nationalist crimes and the 
over-policing of innocuous financial transactions by mosques or 
those originating from the Middle East or people with Middle 
Eastern names, has taken attention away from the clear and 
present threat of White nationalist violence percolating all 
around us, and countless innocent people, particularly in the 
Muslim community, as I said, have effectively lost their right 
to perform religious duties for decades.
    What is clear is that the Treasury Department and other 
Federal law enforcement agencies already have vast 
administrative and statutory authorities at their disposal 
which they routinely use to disrupt financing relating to 
clandestine activity by freezing bank accounts and stopping 
those transactions.
    And what history demonstrates is that providing additional 
national security authority to fight domestic terrorism would 
devastate already over-policed and over-surveilled communities 
of color and Muslims.
    I would like to sum up with a few recommendations.
    First, the Jabara-Heyer NO HATE Act is an important piece 
of legislation that must be passed. It centers communities, and 
it would help with information-sharing relating to hate crimes, 
and would allow the Treasury Department to trace financial ties 
to White nationalist violence.
    Second, the the Domestic Terrorism Prevention Act (DTPA) is 
a piece of legislation that we have endorsed and we believe 
will also help with information-sharing, including with the 
Treasury Department, to enhance clamping down on White 
nationalist violence.
    And, third, we believe that hate crimes data must be 
reported and mandated for public consumption and that 
government leaders must be able to see what is happening across 
our country within the hate crime space.
    I will just conclude by saying that history has taught us 
that national security laws invariably harm the very 
communities they are supposed to protect. From COINTELPRO, the 
FBI's unlawful domestic surveillance operation that the church 
committee demonstrated in Congress, was shamefully used against 
Dr. Martin Luther King, Jr., and other civil rights leaders in 
the 1960s; and it, too, was justified as a national security 
program.
    And now, after 9/11, we have seen similar frameworks used 
to unjustly target and harm Arabs, Muslims, and others, 
treating us and our religion as suspicious, and compromising 
our First Amendment rights, freedoms, and due process rights.
    Adding national security authorities will only exacerbate 
these challenges.
    Thank you. And I am happy to answer any questions.
    [The prepared statement of Ms. Boukadoum can be found on 
page 36 of the appendix.]
    Chairman Himes. Thank you, Ms. Boukadoum.
    Ms. Brooks, you are now recognized for 5 minutes.

STATEMENT OF LECIA BROOKS, CHIEF OF STAFF, SOUTHERN POVERTY LAW 
                             CENTER

    Ms. Brooks. Good morning, Chairman Himes, Chairwoman 
Waters, Ranking Member Hill, and members of the subcommittee. 
My name is Lecia Brooks, and I serve as the chief of staff for 
the Southern Poverty Law Center (SPLC).
    For 50 years, SPLC has been a catalyst for racial justice 
in the South and beyond. We work in partnership with 
communities to dismantle White supremacy, strengthen 
intersectional movements, and advance the human rights of all 
people. The SPLC began tracking White supremacist activity in 
the 1980s. Each year, since 1990, we have conducted a census of 
hate groups operating across the U.S. as part of our annual 
Year in Hate Extremism report. Our 2020 report, released this 
month, documented a decline in the number of hate groups, but 
not a decline in the strength and momentum of their movement.
    As the January 6th Capitol Hill siege affirmed, their 
threat to our democracy has not diminished. Far-right 
extremists are exploiting internet technology to create a 
broader, more decentralized, and more dangerous movement. The 
proliferation of numerous internet platforms has allowed 
individuals to engage with potentially violent movements, like 
QAnon and Boogaloo, without being card-carrying members of a 
particular group.
    Our testimony outlines how this movement finances itself in 
the decentralized way in which they now operate. The funding 
and financing of hate groups in this decentralized landscape is 
also changing in important ways. In the past, hate groups 
raised money by charging dues, selling products, or requiring 
the purchase of uniforms. Today, some White nationalist groups 
and personalities are raising funds through the distribution of 
propaganda itself.
    In November, SPLC researchers reported that dozens of 
extremist groups were earning thousands of dollars per month on 
a popular live-streaming platform called DLive. As the post-
election period became dominated by former President Trump's 
false assertions that the election was fraudulent, these DLive 
streamers shifted to video streaming at in-person events 
branded with the slogan, ``Stop the Steal.'' Some of these same 
individuals were featured by House impeachment managers as key 
perpetrators of the violence on January 6th. You see, they had 
used DLive to live-stream the events inside the Capitol and on 
the grounds.
    Crowdfunding is also being exploited by hate groups to earn 
money in this new decentralized landscape. Crowdfunding sites 
played a critical role in the Capitol insurrection, providing 
monetary support that allowed people to travel to Washington, 
D.C. They have also played a crucial role in raising hundreds 
of thousands of dollars in legal fees for extremists.
    The violent insurrection at the U.S. Capitol on January 6th 
should serve as a wake-up call for Congress, the Biden 
Administration, internet companies, law enforcement, and public 
officials at every level. But we had wake-up calls before, many 
of them, in fact: Charleston, in 2015; Charlottesville, in 
2017; and Christchurch, New Zealand, and El Paso, in 2019.
    As we all saw last month, we can no longer afford inaction. 
Some technology companies have taken steps in the right 
direction to combat the rise of hate and extremism on these 
platforms, but both government and internet companies must do 
far more.
    Let me close by highlighting five policy recommendations we 
included in our testimony:
    One, tech companies must create and enforce terms of 
service to ensure that they do not become platforms for hate. 
They should prevent their sites from being used by extremist 
organizations to raise money for their illegal actions.
    Two, these companies should commit to much more 
transparency and regular outside audits to measure financial 
harms caused by their platforms.
    Three, Congress should prioritize the funding of programs 
for research into technologies that can be used to detect and 
prevent online financial harms while preserving human rights.
    Four, Congress should reject legislation to create a new 
Federal criminal domestic terrorism statute. If passed as 
prologue, such a statute could be used to expand racial 
profiling, or even be wielded to surveil and investigate 
communities of color and political opponents in the name of 
national security.
    Finally, we should make concerted efforts across the 
government to improve Federal hate crime data collection, 
training, and prevention. Data drives policy. We cannot address 
hate violence unless we measure it properly.
    Thank you for holding this important hearing. The SPLC 
looks forward to working with you as you continue to focus your 
urgent attention on this important issue.
    [The prepared statement of Ms. Brooks can be found on page 
42 of the appendix.]
    Chairman Himes. Thank you, Ms. Brooks.
    Mr. Glaser, you are now recognized for 5 minutes.

  STATEMENT OF DANIEL L. GLASER, GLOBAL HEAD, JURISDICTIONAL 
  SERVICES, AND HEAD OF WASHINGTON, DC OFFICE, K2 INTEGRITY; 
 SENIOR ADVISOR AT THE FOUNDATION FOR DEFENSE OF DEMOCRACIES; 
  AND FORMER ASSISTANT SECRETARY FOR TERRORIST FINANCING AND 
       FINANCIAL CRIMES, U.S. DEPARTMENT OF THE TREASURY

    Mr. Glaser. Thank you, Chairman Himes, Ranking Member Hill, 
and distinguished members of the subcommittee. Thank you for 
the opportunity to appear before you today to talk about how 
the U.S. Government can employ similar tools and strategies 
against White nationalist and other domestic terrorist groups 
as it has employed against global jihadist groups over the past 
2 decades.
    This is a personal issue for me. During my time at the 
Treasury Department, I fought to cut off funding to terrorist 
groups such as al-Qaida, the Islamic State, and Hezbollah. As a 
Deputy Assistant Secretary in the Bush Administration, and 
eventually as the Assistant Secretary for Terrorist Financing 
in the Obama Administration, my primary responsibility was to 
lead the design and implementation of strategies, to attack the 
financial networks of these groups, and other threats to our 
country's national security. And while we should never let down 
our guard with respect to those still-potent terrorist 
organizations, it has become tragically clear that there are 
domestic extremist groups that, in some ways, present an even 
greater threat to our ideals and our democracy. We have the 
responsibility to target those groups with the same 
determination, creativity, and sense of purpose that we 
displayed in the years following 9/11.
    To be sure, counter-illicit finance strategies are not 
silver bullets, and there are practical and constitutional 
limitations to domestic action that do not arise in the global 
context. But any comprehensive response to a national security 
threat must include a strategic financial component. It is my 
hope and expectation that the new leadership at the Treasury 
Department will turn its attention to precisely that challenge.
    From the outset, let's be clear, that the purpose of a 
counter-illicit finance strategy is not to replace the 
traditional law enforcement tools which will remain the 
foundation of any domestic effort.
    Supplementing those efforts, a counter-illicit finance 
strategy should seek to hinder the ability of extremist groups 
to use the financial system to mask their identities and to 
raise and move funds. The first step must be to understand the 
typologies and methods by which such groups raise and move 
funds and to map out their financial networks.
    This first step should be followed by two general 
categories of actions: first, offense, undermining the 
financial networks that support these groups; and second, 
defense, taking systemic action within the financial system to 
make it less vulnerable to abuse by these groups.
    It is sometimes stated that extremist groups are less 
vulnerable to financial measures because of their informal and 
decentralized structure. I believe that this is a hypothesis 
that is yet to be tested. Any group that engages in organized 
activity needs to raise and move funds, and when those 
activities extend nationwide or globally, it only increases 
such groups' reliance on the financial system.
    The U.S. Government should undertake a comprehensive effort 
to understand how these extremist groups are accessing the 
financial system and, to the extent possible, to map their 
financial networks. Once the financial networks and activities 
of the extremist groups are better understood, the U.S. 
Government should consider the application of targeted 
financial measures. The U.S. currently has all the authority it 
needs to apply targeted financial sanctions against foreign 
extremist groups, and it began to do so last spring with the 
designation of the Russian Imperial Movement.
    Unfortunately, the U.S. has yet to target additional 
foreign groups. And in contrast to previous campaigns against 
jihadist groups, Treasury has not followed up the initial 
Russian Imperial Movement designation with a financial pressure 
campaign involving waves of sanctions seeking to dismantle 
facilitation networks. I encourage the U.S. Government to 
pursue such campaign as a priority matter.
    Practical and constitutional constraints give the U.S. 
Government far less ability to apply targeted financial 
measures against domestic groups. Congress should consider 
legislation allowing for sanctions like authorities to protect 
the U.S. financial system from abuse by domestic extremist 
groups. Such authorities will need to be tailored to ensure 
that the government complies with constitutional requirements, 
including First Amendment restrictions on how groups are 
targeted and due process restrictions on how such measures are 
applied. One consideration could be to forego the asset freeze 
that is usually associated with sanctions in favor of some more 
limited measures.
    There are also measures that the U.S. Government can take 
today to make the U.S. financial system less vulnerable to 
abuse by extremist groups. The United States has a robust anti-
money-laundering and countering the financing of terrorism 
regime, but it can always be fine-tuned and adjusted to address 
new vulnerabilities, including those presented by domestic 
extremist groups.
    The potential measures in Treasury's toolbox include: the 
issuance of guidance to financial institutions on financial 
typologies, methodologies, and red flags; the establishment of 
private-public partnerships; the use of information-sharing 
authorities; and the use of geographic targeting orders.
    Taken together, these measures will strengthen the ability 
of financial institutions to identify, report, and impede the 
financial activity of domestic extremist groups, and will 
ensure that the U.S. financial system is a hostile environment 
for these groups.
    Thank you, again, for the opportunity to testify, and I 
look forward to answering your questions.
    [The prepared statement of Mr. Glaser can be found on page 
97 of the appendix.]
    Chairman Himes. Thank you, Mr. Glaser.
    Dr. Rogers, you are now recognized for 5 minutes.

  STATEMENT OF DANIEL ROGERS, CO-FOUNDER AND CHIEF TECHNOLOGY 
              OFFICER, GLOBAL DISINFORMATION INDEX

    Mr. Rogers. Chairman Himes, Ranking Member Hill, Chairwoman 
Waters, and members of the subcommittee, good morning, and 
thank for the opportunity to speak before you and discuss the 
funding mechanisms of these domestic violent extremist groups.
    I am the co-founder and chief technology officer of the 
Global Disinformation Index (GDI), a nonprofit focused on 
catalyzing change in the technology industry to disrupt online 
disinformation.
    Last fall, my colleague, Ben Decker, and our team at the 
GDI collaborated with the Institute for Strategic Dialogue to 
conduct a study entitled, ``Bankrolling Bigotry'', to examine 
the funding mechanisms of American hate groups.
    Many of the groups implicated in the events of January 6th 
are the same ones that we examined last year in our study. This 
is why I sit before you today to discuss a little bit about 
what we learned about how technology and payments companies 
enable groups like those that participated in the insurrection 
to operate.
    These groups leverage the internet as a primary means of 
disseminating their toxic ideologies and soliciting of funds. 
One only needs to search Amazon or Etsy for the term, 
``QAnon'', to uncover shirts, hats, mugs, books, and other 
paraphernalia that both monetize and further popularize the 
domestic violent extremist threat. Images from that fateful day 
last month are rife with sweatshirts that say, ``Camp 
Auschwitz'', that, until recently, were for sale on websites 
like Teespring and CafePress.
    As we speak, at least 24 individuals indicted for their 
role in the January 6th insurrection, including 8 members of 
the Proud Boys, have used crowdfunding site GiveSendGo to raise 
nearly a quarter of a million dollars in donations. And it is 
not just about the money. This merchandise acts as sort of like 
a team jersey that helps these groups recruit new members and 
foment further hatred towards their targets.
    We analyzed the digital footprints of 73 groups across 60 
websites, and 225 social media accounts and their use of 54 
different online fundraising mechanisms, including 47 payment 
platforms in 5 different cryptocurrencies, ultimately finding 
191 incidences of hate groups using online fundraising services 
to support their activities.
    The funding mechanism included both primary platforms like 
Amazon, intermediary platforms such as Stripe or Shopify, 
crowdfunding sites like GoFundMe, payment facilitators like 
PayPal, monetized content streaming services such as YouTube 
Super Chats, and cryptocurrencies such as Bitcoin.
    All of these payment mechanisms were linked to websites or 
social media accounts on Facebook, Instagram, YouTube, 
Telegram, LinkedIn, Pinterest, Gab, BitChute, and others. The 
sheer number of companies I just mentioned is the first clue to 
the scale and the scope of the problem. This is not an issue of 
any one individual company, but, rather, a systemic problem of 
hate and bigotry exploiting an entire industry, and even 
government policy, to raise funds, peddle extremist ideologies, 
and commit acts of violence.
    A number of conclusions stood out to us in performing this 
work. For starters, over half of the platforms we identified 
already have explicit policies against hate and extremism that 
are simply not enforced. We also found that a large fraction of 
the groups we studied have approved tax-exempt status with the 
IRS. A full 100 percent of anti-Muslim groups, 75 percent of 
anti-immigrant groups, and 70 percent of anti-LGBTQ groups have 
501(c)(3) or 501(c)(4) status.
    Over 1/3 of the militia groups that we identified, 
including the Oath Keepers, whose leadership was recently 
indicted on charges related to January 6th, have tax-exempt 
status.
    This status gives them access to a whole spectrum of 
charity fundraising tools from Facebook donations to Amazon 
Smile to the point where the most common fundraising platform 
we identified across all of our data was Charity Navigator. 
These platforms are reticent, to say the least, to make 
unilateral decisions that go against IRS determination.
    The problem of hate groups exploiting the Tax Code goes 
back decades, and stems from a combination of a lack of 
resources at the IRS to properly enforce compliance, as well as 
long-standing efforts by some to exploit the charity rules for 
political, and, now, extremist purposes.
    But the issue has become more urgent in the wake of January 
6th. In the days leading up to the insurrection, the Oath 
Keepers' founder, Stewart Rhodes, appeared on a podcast and 
solicited charitable donations to the Oath Keepers Educational 
Foundation. It can only be presumed that these funds, which 
listeners were notably able to deduct from their Federal taxes, 
went to transporting and lodging members of the group slated to 
participate in the ensuing riots.
    Private industry must also step up and do more. Since the 
publication of our report last October, we have documented at 
least 17 actions taken by platforms against the groups we have 
enumerated. For example, four of the six payment mechanisms 
routing funds to the Oath Keepers have been blocked. Amazon has 
even removed them from Amazon Smile. But 17 actions out of 200 
instances we observed speaks to the rampant way that it has 
been allowed to persist. In fact, while most platforms have 
removed the Oath Keepers, payment facilitator RallyPay still, 
to this day, services the group's fundraising needs, and has 
shown no signs of responding to public pressure to stop.
    More must be done. Industry-wide standards must be set, and 
enforcement across both the private and public sector must be 
stepped up.
    Chairman Himes, Ranking Member Hill, Chairwoman Waters, and 
members of the subcommittee, thank you for your time, and I 
welcome your questions.
    [The prepared statement of Dr. Rogers can be found on page 
102 of the appendix.]
    Chairman Himes. Thank you, Dr. Rogers.
    Dr. Gartenstein-Ross, you are now recognized for 5 minutes.

          STATEMENT OF DAVEED GARTENSTEIN-ROSS, CEO, 
                         VALENS GLOBAL

    Mr. Gartenstein-Ross. Domestic violent extremism is today 
uniquely posed for growth. Opportunities are given by our 
information environment by seemingly intractable global 
problems that governments appear incapable of addressing, by a 
nation riven by its differences, and by an age where ethics and 
identity are in constant flux.
    Chairman Himes, Ranking Member Hill, Chairwoman Waters, and 
distinguished members of the subcommittee, on behalf of Valens 
Global, it is an honor to appear before you today. I think it 
is obvious how the backdrop I describe represents an attractive 
recruiting environment for any extremist group.
    This panel's consensus is that White supremacist extremism, 
or WSE, is the most pressing present threat. This is not just 
the panelists' opinions. Multiple U.S. Government assessments 
validate this view, as do relevant statistics, but White 
supremacist extremism is not the only concern in the domestic-
violent extremist, or DVE space.
    In addition to documenting relevant WSE threat actors, my 
written testimony details street violence, assaults, arson, and 
intimidation employed by another militant stream. There has 
been a general rise in extremism.
    The opening remarks of the chairman and the ranking member 
rightly emphasized that we are living through a dynamic 
multifaceted ecosystem of extremism. Our divisions could plunge 
the U.S. into serious conflict, or even fragmentation.
    Scholars have discussed reciprocal radicalization, where 
opposite extremes strengthen both sides and give average people 
a reason to drift toward extremes. Reciprocal radicalization 
shows that the power and success of groups aligned with one 
extremist ideology fuels ostensibly opposing groups. Though 
different forms of extremism can thrive off one another, 
society suffers.
    Our policies must be appropriate to this environment. Any 
policies to combat DVE should be narrowly targeted and rights-
protected. Unfairly targeting only one ideology, or seeking to 
criminalize constitutionally protected behaviors, may push the 
country into deepening conflict. So, what can be done?
    First, the U.S. Government should consider designating 
additional WSE groups as terrorist organizations. I single out 
WSE groups here because of the level of transnationalism in the 
movement, which is a prerequisite for designation under current 
law. The State Department's designation last year of the 
Russian Imperial Movement was significant, and it is worth 
considering further designations of violent groups that satisfy 
the criteria.
    Second, any current discussion of DVE financing will touch 
about a domestic designation statute allowing designation of 
purely domestic groups. This is the most direct way of 
addressing DVE groups' financing, potentially criminalizing the 
act of funding them and letting authorities clamp down on their 
assets. Yet, such a statute would be fraught with civil 
liberties concerns. Any such statute must be viewpoint-neutral 
with designations corresponding to the threat groups posed, not 
to the ideas that they espouse. The statute must be clear about 
predicate acts that could result in designation, and that 
threshold for designation should be relatively high.
    Third, [inaudible] more rigorously mapped relevant DVE 
groups and their finances. The current consensus among DVE 
experts is that these groups are relatively fluid and devoid of 
organizational hierarchy. This may be so, but there is a 
tendency for experts to see groups as disorganized or non-
hierarchal, when they have a hidden structure, something to 
which Mr. Glaser's testimony alluded. Our current understanding 
of DVE group structure and funds may be incomplete, and in the 
digital age, fluid structures can quickly morph into more 
concrete ones. Further research may present further policy 
options.
    Finally, the U.S. Government should devote resources to 
better understanding reciprocal radicalization and related 
phenomenon, fringe fluidity, the transition of an individual or 
group from one extremist ideological stream to another. Better 
understanding of these dynamics would afford us a better 
understanding of how violent extremists interact with each 
other.
    In conclusion, this hearing refers to the events of January 
6th as an insurrection. Anybody who has been in an insurgency 
or a civil war situation knows that it is essential to reduce 
the potential pool from which militant factions can draw. 
Everyone who is a part of this hearing--Members of Congress, 
experts, media, spectators--should understand that we are all a 
part of this story. Our work is not to score partisan points, 
but to make this democracy more resilient to the challenges it 
confronts.
    With the divisions we have, with today's unprecedented 
ability to mobilize for good or ill, we need to reduce the 
number of people who might try to impose their will on the rest 
of us by force.
    Thank you.
    [The prepared statement of Dr. Gartenstein-Ross can be 
found on page 58 of the appendix.]
    Chairman Himes. Thank you, Dr. Gartenstein-Ross.
    We now come to the member question portion of the hearing. 
I thank all of the witnesses for that comprehensive testimony, 
and now recognize myself for 5 minutes for questions.
    One thing that struck me is that we heard from five 
excellent witnesses, and I don't believe I heard the word, 
``cybercurrency'' once. It comes up a lot with my constituents. 
It comes up a lot in different contexts. So just to keep some 
organization, let me ask two of the witnesses to just offer a 
brief perspective on how the committee should think about 
cybercurrency as an anonymous and potentially untraceable 
source of financing.
    Let me start with Ms. Brooks. Any thoughts?
    Ms. Brooks. I invite my colleague, Dr. Rogers, to take the 
first shot at that.
    Mr. Rogers. Okay. Thank you. Thanks, Congressman. That is a 
very interesting question, and one that was included in our 
study. We looked at five different cryptocurrencies and their 
involvement in transferring funds to these groups. They are 
definitely there. They are definitely part of the fundraising 
strategies. What we noticed was that there was a strong 
correlation with the kind of explicit extremism of the group 
and their use of cryptocurrencies. So, maybe less extreme 
groups, or more cryptically extreme groups, for lack of a 
better word, had a more dominant use of traditional fundraising 
platforms that touched the kind of mainstream financial system. 
And what would happen is as they were deplatformed off of those 
tools, those sites, they would migrate into the use of 
increasingly anonymized cryptocurrencies.
    I should also point out that cryptocurrencies, I like to 
call them pseudonymous, not necessarily anonymous, and there 
are efforts and ways to track transactions, the challenge being 
attributing, say, a particular cryptocurrency wallet to a 
particular actor, but we definitely saw the use of 
cryptocurrencies generally behind the most extreme groups that 
we studied.
    Chairman Himes. Thank you, Dr. Rogers.
    I do have one other question, if any of the other witnesses 
have a different or additional perspective on cryptocurrencies, 
let me just invite anyone who wants to chime in.
    Mr. Glaser. If I could chime in, Mr. Chairman?
    Chairman Himes. Yes, please.
    Mr. Glaser. This is Danny Glaser talking.
    With respect to cryptocurrencies, I think it is important 
to remember that if you want to be able to use a cryptocurrency 
in the real economy to any scale, at some point, it does need 
to be converted into actual currency, into dollars. That is the 
place where the Treasury Department does regulate 
cryptocurrencies, and cryptocurrency exchanges are regarded as 
money services businesses. They have full customer due 
diligence requirements. They have full money-laundering program 
requirements. They have reporting requirements.
    The U.S. Treasury Department, just last month, issued a 
proposed rule relating to unhosted wallets of cryptocurrencies, 
and that is out for notice and comment right now. It addresses 
the particular issue of wallets that are not hosted on a 
particular exchange. I think it is an important rule that is 
out there, and I do encourage people to take a look at it. The 
comment period closes in May, and then, hopefully, Treasury 
will be able to take regulatory action to close that particular 
vulnerability.
    Chairman Himes. Thank you, Mr. Glaser.
    I actually have an additional question for you, and I don't 
have a lot of time. One of the things that struck me about the 
testimony is that there weren't really calls for additional 
laws. In fact, two of our witnesses urged us to avoid that.
    Mr. Glaser, you, though, suggested something new that I 
would like to give you, maybe, the 42 seconds I have left to 
elaborate on. You said you were hopeful for sanctions like 
authorities against domestic actors. You did nod to 
constitutional and civil liberties concerns, but give us 
another 30 seconds on exactly what you mean and, perhaps, most 
importantly, what sort of Fourth Amendment overlay should 
accompany such authority?
    Mr. Glaser. Thank you for the question.
    The fact is that the Treasury Department really does not 
have a lot of authority to go after purely domestic groups in 
the way that it goes after global terrorist organizations. It 
simply doesn't have that authority.
    You could imagine an authority that does allow for the 
designation of domestic organizations. It would have to take 
into account, certainly, constitutional restrictions. When you 
read a lot of the court decisions, there are concerns relating 
to notice. Those concerns could be addressed in a statute. 
There are concerns that a lot of the scrutiny is heightened 
because sanctions are usually accompanied with asset freezes. 
But you could imagine sanctions that don't involve asset 
freezes that involve--transaction bans that involve regulatory 
type of requirements that you see in Section 311 of the PATRIOT 
Act.
    So, there is a variety of ways that the due process 
standards could be raised from what we see in the global 
context and the--
    Chairman Himes. Thank you, Mr. Glaser. I hate to cut you 
off, but I have to be a little disciplined on time. I am very 
interested in that, so let me encourage you, if you want to 
submit additional testimony, to do so.
    And before I recognize the ranking member, it was 
startling--not startling, it was interesting to me that there 
were apparently no strong dissenting views on the concept of 
additional legislation. So if the witnesses have additional 
thoughts on that, the chairman would certainly welcome that in 
written form.
    And with that, the Chair now recognizes the distinguished 
ranking member for 5 minutes for questions.
    Mr. Hill. Thanks, Chairman Himes. This has been an 
excellent panel, with really superb presentations, and it has 
been very informative.
    In looking at the draft legislation that the Majority 
noticed with this hearing, one bill stuck out to me, and I 
think it is a good follow-up from your most recent exchange. It 
seeks to amend Title 31 to require the Secretary of the 
Treasury to establish a program to allow designated employees 
of financial institutions to access classified information 
related to terrorism, sedition, and insurrection.
    Now, over the past three Congresses, we have talked about 
the concept of a fusion center, not unlike we do in monitoring 
cyber risk and cyber crimes, for this terror finance arena. We 
have never been able to come ashore on it legislatively, so I 
found that interesting; however, I am concerned when you 
deputize bank employees without any oversight as to how the 
information would be protected, or if there is really even a 
need for that, so I would like some comments.
    Dr. Gartenstein-Ross, could you describe how banks share 
information with law enforcement today, and then provide 
feedback on how we might change these protocols, or if that 
protocol change is necessary?
    Mr. Gartenstein-Ross. Thank you, Ranking Member Hill.
    There are four primary ways that banks share information 
now. The first is suspicious activity reports (SARs). Financial 
institutions have to file these documents with the Financial 
Crimes Enforcement Network (FinCEN) when there is a suspected 
case of money laundering or fraud. The SAR is designed to 
monitor activity in finance-related industries that are out of 
the ordinary, or a precursor to illegal activity, or could 
threaten public safety.
    Second, there is law enforcement's Section 314(a) power 
under the PATRIOT Act, in which it obtains potential lead 
information from financial institutions via FinCEN.
    Third, law enforcement can use its subpoena power if a 
court issues a subpoena pursuant to an investigation, or to an 
administrative proceeding.
    And, fourth, where there are blocked assets, pursuant to 
the Office of Foreign Assets Control (OFAC) authorities, 
sanctions, or otherwise, banks are required to report blocked 
assets back to OFAC.
    The information-sharing, in my view, is currently quite 
effective. Treasury, in particular, has a very strong 
relationship with the U.S. financial institutions.
    Mr. Hill. Thank you. And we made one tweak that was passed 
into law, signed into law last year, a bill of mine, called the 
Cooperate with Law Enforcement Agencies and Watch (CLAW) Act, 
which encouraged cooperation on accounts kept open so that they 
could be pursued by law enforcement investigations. And I 
appreciated the bipartisan support for that.
    On Section 314 in the PATRIOT Act, is that a place where we 
could, in a protected, appropriate way, make a change that 
relates to this domestic issue, or is that, in your view, too 
challenging?
    Mr. Gartenstein-Ross. No. I think it is a place where you 
could definitely make a change. The 314(a) process allows an 
investigator to canvas financial institutions for potential 
lead information that might otherwise never be uncovered. It is 
designed to allow disparate pieces of information to be 
identified, centralized, and evaluated.
    When law enforcement submits a request to FinCEN to get 
information from financial institutions, it has to submit a 
written certification that each individual or entity about 
which the information is sought is engaged in or reasonably 
suspected of engaging in terrorist activity or money 
laundering.
    I think that in some cases, 314(a) may already be usable, 
but I think it is worth looking at the 314(a) process to see 
if, in this particular context, when you are looking at 
domestic violent extremism, as opposed to foreign terrorist 
organizations, there are some tweaks that would provide the 
ability to get leads in this matter.
    Mr. Hill. Yes, I share all of the chairman's concerns about 
this, but I would invite you to write to the committee with 
more details about how one might make a regulatory or 
procedural change there at Treasury on that topic.
    Let me switch subjects. You made a very interesting point 
in your comment about mapping these extremist groups' 
organizational capability. Can you expand on the mapping part? 
We have about 30 seconds, and I will turn it to--
    Mr. Gartenstein-Ross. Yes, sir. Basically, right now--and 
you heard several witnesses say this, and I am not disputing 
this--the view of these groups is that they tend to be rather 
hierarchy-less. They are not very vertical in structure. And 
what I have noticed in the realm of extremist groups is 
sometimes there are hidden structures that we experts are slow 
to recognize. I know that one of the proposed bills on the GAO 
would look in more detail into the assets that DVE groups have. 
I think that is a good idea. I think that we could do more to 
map the assets and understand the flow of funds to these 
organizations, sir.
    Mr. Hill. Thanks for your time.
    Mr. Chairman, thank you for your leadership, and I yield 
back.
    Chairman Himes. Thank you, Mr. Ranking Member.
    The Chair now recognizes the Chair of the Full Committee, 
Chairwoman Waters, for 5 minutes of questions.
    Chairwoman Waters. Thank you so very much for allocating 
this time.
    I would like to direct a question to Mr. Glaser and, 
perhaps, Ms. Brooks also.
    As you know, Henry Enrique Tarrio is known as the national 
chairman of the Proud Boys, and he was in town prior to January 
6th, and he was ushered out of town by the local metropolitan 
police. But what is interesting about him is he had a 
relationship with the FBI, and he became an informant for the 
FBI, and he informed on people for drugs and gambling and human 
smuggling, and some other things; but it appears that they 
turned a blind eye to the fact that he was a domestic 
terrorist, and, basically, was participating in terrorist 
activities, et cetera, and getting away with it, and said that, 
before going into rallies, they would inform law enforcement 
that the Proud Boys were going to be involved.
    Now, even though this hearing is based on financing, I 
guess my question, Mr. Glaser and Ms. Brooks, is this: Should 
we look at public policy that would not allow the FBI to have 
these kinds of relationships where they would turn a blind eye 
to domestic terrorism in exchange for information and informing 
on drugs and gambling and that kind of thing?
    Mr. Glaser?
    Mr. Glaser. Thank you for the question, Chairwoman Waters.
    I certainly don't think the FBI should be turning a blind 
eye to White supremacy and to domestic terrorism of any kind. 
Of course, the FBI has a difficult job to manage in terms of 
figuring out the best way to collect information that it could 
act upon. I don't know that I know enough about the internal 
deliberations within the FBI that led it to make the decisions 
that it made, but I certainly do agree that we should be--and I 
don't think we have been, and when I was in government, we 
certainly--I will take that as a criticism of myself as well. 
We certainly did not prioritize efforts against White supremacy 
as much as we should have. I think that is changing now, and I 
think it needs to continue to change, and I think it should 
change throughout the government.
    Chairwoman Waters. Okay. Thank you very much. It is, I 
think, very important to understand whether or not the FBI will 
use criminals and domestic terrorists and turn a blind eye in 
exchange for information about drugs, gambling, and other 
things. I knew that happened in dealing with drug dealers, 
where they let some drug dealers stay free if they turned in 
other drug dealers but this makes it appear they don't care 
about domestic terrorism.
    Do you know anything about this? Ms. Brooks, have you heard 
about the Proud Boys and their relationship to the FBI?
    Ms. Brooks. Yes, ma'am. Thank you. Thank you, Chairwoman 
Waters.
    I completely agree with my colleague, Mr. Glaser, that they 
should not turn a blind eye. The Southern Poverty Law Center 
would say that it is because we failed to take the threat of 
White supremacy and White nationalists, we failed to recognize 
the importance of it. And, so, that the FBI would engage in 
some information-sharing at the risk of our democracy is 
untenable, and I believe that solely because, as we saw on 
January 6th, we failed to recognize the threat. I believe we 
have learned some things, and hopefully, the information-
sharing will be taken seriously, and we will recognize that the 
greatest threat to our homeland is from White nationalists with 
a White supremacist ideology.
    Chairwoman Waters. Do you think that I, or Chair Himes, or 
anyone should pursue public policy in this area of turning a 
blind eye from our law enforcement in exchange for information 
that they could give them on other kinds of crimes?
    Ms. Brooks. Yes, ma'am. I do think that it is something you 
should look into. The Southern Poverty Law Center is happy to 
assist in that, and we can bring some research together and add 
it to the record if you would like.
    Chairwoman Waters. Thank you very much.
    Mr. Chairman, I yield back the balance of my time.
    Chairman Himes. Thank you, Madam Chairwoman.
    The gentleman from Texas, Mr. Williams, is now recognized 
for 5 minutes.
    Mr. Williams of Texas. Thank you, Mr. Chairman, and thank 
you, Mr. Hill.
    Unfortunately, January 6th was the second politically-
motivated attack that I have been involved in, in the past 4 
years. As we talked about already this morning, on June 14, 
2017, a crazy Bernie Sanders supporter opened fire on a 
Republican congressional baseball practice and injured me, 
along with five other individuals. Because of the heroic 
actions of Capitol Police Special Agents Crystal Griner and 
David Bailey, and with God being in charge, the only fatality 
that day was the crazed shooter.
    Now, this was a politically-motivated attack driven by 
anger and extremism, where signs were posted on social media 
beforehand, and some of the posts read, ``Republicans are the 
Taliban of the U.S.A.'', and, ``It is time to destroy Trump and 
company.'' Unfortunately, if you went on Twitter or Facebook 
right now, you would find similar messages from hundreds of 
people spewing this type of hate.
    So, Ms. Boukadoum, how could we possibly monitor everything 
posted on the internet without greatly expanding the police 
state, and significantly infringing on our First Amendment 
rights and all Americans' constitutional rights?
    Ms. Boukadoum. Thank you for the question, Congressman.
    I believe that there was a fundamental breakdown in law 
enforcement response on January 6th, and also, when the attack 
happened by that Bernie Sanders supporter, because the law 
enforcement agencies in our country have disproportionately 
prioritized the wrong thing. This is a question of 
prioritizing. We have not prioritized White nationalist 
violence. We have not prioritized violence that is motivated by 
actions. We have prioritized ideology, and that is deeply 
troubling, and, in fact, as you said, Congressman, it's a 
violation of the Constitution.
    And so, our position is that we must follow the acts of 
people. So if there is a threat made by people, whether it is 
the Proud Boys, or whether its Bernie Sanders supporters, then 
law enforcement must follow that. What we have seen is a 
fixation on a certain type of terrorism that is inspired by so-
called Muslim ideology, and that has blind-sighted us. And, 
unfortunately, we missed a huge attack on January 6th, and many 
people died, and many people are shocked still.
    So, that is my answer to you.
    Mr. Williams of Texas. Okay. In 2019, the City of San 
Francisco voted to label the NRA as a domestic terrorist 
organization. In August of 2020, Speaker Pelosi called 
Republican lawmakers, ``enemies of the State.'' Now, with 
people being so quick to judge their political opponents as 
domestic terrorists, it makes me very uncomfortable to expand 
the powers to go after our own citizens.
    So, Dr. Gartenstein-Ross, what safeguards are in place to 
make sure that any additional powers granted to the State are 
not abused for political gain?
    Mr. Gartenstein-Ross. Thank you, Representative Williams. 
That is a great question, and I share your concern about people 
throwing the word, ``terrorist'' around, or overlabeling in 
this regard. This is why when I emphasized, and to be very 
clear, I am not advocating a domestic designation statute. I 
was simply making the case both for and against it. But for any 
additional powers that are given to the State, I think what is 
important is: first, setting a clear threshold for what 
designation, or who the predicate of the crime would be; and 
second, making sure that it is keyed to actual terrorism.
    One thing we have seen over the course of the past year is 
that we have an unprecedented ability to mobilize for a variety 
of causes. Some mobilizations result in violence being 
inflicted by a variety of actors, and I think we are going to 
see more mobilizations around a variety of causes that end up 
with violence being a part with the mobilization. I think we 
need to understand any powers given to the State against that 
context and against the context that you emphasized that there 
are a variety of groups, a variety of individuals who 
increasingly see their opponents as evil, and harming them as 
something which naturally flows from their very binary world 
view.
    Mr. Williams of Texas. Okay. Throughout the COVID-19 
pandemic, I have been very concerned about having our kids out 
of school and learning remotely, but the social skills that our 
children learn through interacting with other people their age 
cannot be replicated over a computer, and never will be. We 
have already seen reports of increased mental health issues, 
depression, and suicides as a result of the COVID-19 lockdown.
    So, Dr. Rogers, can you talk about the role that isolation 
and mental health play in radicalizing individuals to carry out 
these horrible attacks?
    Chairman Himes. The gentleman's time has expired, so the 
witness will have to provide that statement as an amendment to 
the witness' testimony.
    Just for clarity, since we are getting started on these 
hearings, the Chair will allow the witnesses the courtesy of 
finishing an answer that they have begun before the timer goes 
off, just as a matter of courtesy and good transmission of 
information, but that courtesy will begin to be revoked 15 or 
so seconds after the timer.
    So with that, the gentleman from New Jersey, Mr. 
Gottheimer, is recognized for 5 minutes.
    Mr. Gottheimer. Thank you, Chairman Himes, Chairwoman 
Waters, and Ranking Member Hill. Thank you very much for 
putting together this important hearing, and thanks to all of 
our witnesses for being here today.
    I proposed bipartisan legislation called the Freezing 
Assets of Suspected Terrorists and Enemy Recruits (FASTER) Act, 
featured in today's hearing. This bill will help law 
enforcement to freeze the assets of domestic terrorists facing 
Federal charges for insurrection and seditious conspiracy, like 
those who stormed the Capitol, but also like ISIS-inspired lone 
wolf terrorists, and others of that ilk.
    Mr. Glaser, given your experience in the private sector and 
as the former Assistant Secretary for Terrorist Financing and 
Financial Crimes, you know that for foreign terrorist 
organizations, the threshold for asset seizure is low. Given 
what transpired at the Capitol, do you believe that law 
enforcement could make use of greater authorities in certain 
cases for domestic extremism, such as insurrection or seditious 
conspiracy?
    Mr. Glaser. Thank you for the question, Congressman. And to 
be clear, I think we need to make a distinction between seizure 
and forfeiture on the one hand, and freezing assets on the 
other hand. The standard for seizing and forfeiting assets 
under any circumstance is the same under criminal or civil 
forfeiture. It is relatively lower with respect to freezing 
assets for foreign organizations. And as I was saying, when I 
talk about a domestic terrorist financing authority, I am 
talking about the application of sanctions like authority in 
that case, but it doesn't necessarily have to involve a freeze.
    But to answer your question with respect to your 
legislation, I do think it addresses a lot of concerns with 
respect to immobilizing assets quickly. It is linked to the 
criminal justice system. It is not linked to more traditional 
terrorist financing types of activity in which the Treasury 
Department would be involved.
    I guess my question is whether or not an asset forfeiture 
count within an indictment would serve a similar purpose, but I 
do certainly applaud your effort to ensure that assets relating 
to insurrection are quickly immobilized, and it seems to me 
that is what the statute is trying to do.
    Mr. Gottheimer. Thank you, sir. And just to follow up, do 
you believe that the current financial intelligence system we 
have in place is effective in providing the proper data to law 
enforcement to combat the financing of these attacks?
    Mr. Glaser. I think that our anti-money-laundering 
counterterrorist financing system does generate an enormous 
amount of information for the government to analyze and then 
use. I think there are ways that it can be improved. Public-
private partnerships are very important. Daveed talked about 
the use of 314, both A and B to transfer information, and I 
think there are maybe tweaks we can make to the suspicious 
activity reporting that would provide, not necessarily more 
information, but better information.
    Certainly, there is technology that also could be employed 
by the government and by financial institutions to allow them 
to go through the massive amounts of data that banks need to go 
through to file quality suspicious activity reports.
    I think there are plenty of ways the system can be 
improved, but the fact is that Treasury has access to massive 
amounts of financial information, and I think the focus should 
be on improving the quality, not necessarily the quantity.
    Mr. Gottheimer. Thank you, sir.
    Ms. Brooks, in the work that the Southern Poverty Law 
Center has done to track domestic extremist groups like the 
ones that attacked the Capitol on January 6th, have you 
observed increased use of 21st Century technologies to enable 
these groups? For example, using websites that are outside of 
the mainstream to organize and spread hate, and fundraising 
tools like cryptocurrencies that are more difficult for law 
enforcement to track?
    Ms. Brooks. Yes, sir. Thank you for the question, and this 
really speaks to the earlier question as well. As I mentioned 
in my oral testimony, we note a massive decentralization of 
these groups and a disbursement of groups, so it makes it 
harder to track them and harder to follow the money. And we 
have noticed that the groups are continuing to self-disburse.
    Mr. Gottheimer. Are they using cryptocurrencies? Do you 
notice them using cryptocurrencies?
    Ms. Brooks. Oh, yes, sir. Hold on one second. I have 
something on that. Yes. Monetized propaganda has continued to 
increase and we see a lot of personalities distributing--I'm 
sorry. I apologize. I am looking for my notes on that. Hold on 
a second.
    On December 8th, someone from the far right personalities 
distributed--oh, sorry. I will stop.
    Mr. Gottheimer. Mr. Chairman, will you allow the witness to 
answer the question? Is that okay?
    Chairman Himes. Oh, yes. If the witness would like to 
quickly conclude her answer, that is fine.
    Mr. Gottheimer. Thank you, Mr. Chairman.
    Ms. Brooks. Thank you. In a single bitcoin transaction, we 
noted about $523,000 exchanged on blockchain. The recipients 
included Nick Fuentes whom, as you know, is a far-right 
internet personality who is banned from YouTube and other 
platforms because of his hateful content. And so, we continue 
to see this money transferring across lines.
    Mr. Gottheimer. Thank you, Ms. Brooks. And thank you, Mr. 
Chairman.
    Chairman Himes. You are welcome.
    The gentleman from Ohio, Mr. Davidson, is now recognized 
for 5 minutes.
    Mr. Davidson. I thank the chairman, and I thank the 
witnesses for the expertise you have provided for this hearing 
and the preparation that goes into it. With each passing 
Congress, I want to share a concern, that really, with each 
passing Congress, we further erode the Fourth Amendment under 
the guise of promoting national security. This has evolved from 
a trend to a real tradition.
    As an example, the Corporate Transparency Act took a large 
chip out of the Fourth Amendment last year. I fear that January 
6th will be used as another reason to further destroy the 
Fourth Amendment and the protections it provides.
    Mr. Glaser's testimony states that the U.S. anti-money-
laundering (AML) CFT regime can always be fine-tuned and 
adjusted to address a variety of vulnerabilities, including 
those presented by racially- and ethnically-motivated violent 
extremist groups.
    Mr. Glaser then lists different tools the Treasury can use 
to fine-tune and adjust. Let's take a moment to translate what 
it means to fine-tune and adjust this AML toolbox. It really 
means that we are further intruding on individual privacy by 
handing the government more and more of a person's financial 
record. At what point do we draw the line?
    January 6th cannot and should not be used to destroy our 
right to privacy even further. And, frankly, I was encouraged 
by Ms. Brooks' notion that we should resist the temptation to 
further empower the Federal Government because it has been 
abused and, frankly, it has been abused heavily towards 
minority groups in the past, and now under the guise of 
protecting them, it would be a shame to see further powers that 
erode privacy protections.
    So, I urge my colleagues to speak up on this topic and the 
narrative that really attacks the Fourth Amendment right to 
privacy. Mr. Glaser, in your testimony you said that the 
government should consider legislation to protect the U.S. 
financial system from being abused by domestic terrorists. You 
acknowledge that the legislation would have to be tailored to 
comply with the Constitution, specifically the First Amendment, 
but you really don't make mention of the Fourth Amendment 
anywhere.
    My question is, what constitutes an unreasonable search of 
an American citizen? Should Americans have any expectation of 
privacy with respect to their personal finances? Where is that 
limit, because it sounds like there might not be one. In fact, 
the word, ``privacy'' isn't even mentioned in your testimony.
    Mr. Glaser. Thank you for the question, Congressman. In my 
testimony, I did make reference to constitutional due-process 
requirements. I didn't specifically mention the Fourth 
Amendment, but, of course, the Fourth Amendment is where many 
of those constitutional due process requirements are contained, 
so it certainly wasn't my intention to imply that the Fourth 
Amendment shouldn't be--we shouldn't ensure that the Fourth 
Amendment protections adhere.
    I would also note that with respect to the Anti-Money 
Laundering/Combating the Financing of Terrorism (AML/CFT) 
measures that I recommend be taken, none of them involve 
providing the government with more financial records.
    Mr. Davidson. I appreciate that. I do get that. And, look, 
you served in a very important post, one of the most important 
in our government, for that matter, in my view, in terms of 
overseeing this part of Treasury, which is really vital for our 
national security, and I think it is relevant for Chairman 
Himes to be holding this hearing on the topic.
    So, the tension is just so incredibly important. I guess, 
the core question is, do you believe that Americans should have 
an expectation of privacy with respect to their personal 
finances?
    Mr. Glaser. Yes, of course, I think Americans should have 
an expectation of privacy with respect to their personal 
finances. As with every other privacy consideration, it is a 
question of balancing where the liberal limitations of that 
privacy begin and end, and I think it is certainly possible and 
I think we do so every day to respect people's privacy on the 
one hand, but also give the government the tools it needs to 
protect its citizens from other threats. Because threats to 
civil liberties come in all direction--
    Mr. Davidson. I appreciate that. I apologize. I have to get 
at least one more question in. I have about a dozen, so. But 
Mr. Gartenstein-Ross, according to the LexisNexis report last 
fall, the scope of AML is huge. So my question is, should we 
double down on a static AML system in an ever-evolving industry 
that is growing compliance costs or should we try to overhaul 
it?
    There was a really good BuzzFeed article last year that 
talked about the problems where the biggest banks, frankly, are 
the biggest money launderers, how do we address that--
    Chairman Himes. The gentleman's time has expired.
    The gentleman from New York, Mr. Torres, is recognized for 
5 minutes.
    Mr. Torres. Thank you, Mr. Chairman. Both the Code of 
Federal Regulations and the PATRIOT Act provide the Federal 
definition of, ``domestic terrorism'', but as has been noted, 
there was no Federal designation of domestic terrorism nor was 
there Federal prosecution of domestic terrorism as a crime unto 
itself, all of which has me wondering, what is the point of 
defining domestic terrorism in Federal law if it doesn't result 
in designation for prosecution, what practical impact does the 
Federal definition have on domestic counterterrorism and, in 
particular, counterterrorism finance?
    Mr. Glaser?
    You are on mute, Mr. Glaser.
    Chairman Himes. The Chair will instruct that 25 seconds be 
added back to the gentleman from New York's time.
    Mr. Torres. I appreciate that, Mr. Chairman.
    Chairman Himes. Mr. Glaser, are you with us?
    Mr. Torres. Mr. Glaser, you are on mute.
    Is there anyone else on the panel who can address this 
question?
    Ms. Boukadoum. I am happy to jump in. The domestic 
terrorism definition that is in the PATRIOT Act is really 
defined for FBI investigatory purposes. And you are absolutely 
right, Congressman Torres--and it is good to see you, again--
that there is no parallel charge that goes with the domestic 
terrorism definition. So, it is really designed for 
investigatory purposes.
    What we submit is that the material support for terrorism 
statute--as we know, there are two of them. There is one with 
an international nexus that is required and there is one that 
allows for investigating material support for terrorism, 
domestic terrorism, in particular, as defined in the PATRIOT 
Act with underlying statutes that allow for any crimes that 
take place within the United States that have no international 
nexus.
    And we believe that second piece of the material support 
for terrorism statute has been neglected, and can be nicely 
used with the domestic terrorism definition as laid out in the 
PATRIOT Act, and we hope that statutory framework will be used 
to actually go after violent White nationalists and others.
    Mr. Torres. Much has been said about the First Amendment 
and domestic counterterrorism. I have a hypothetical. Suppose 
there were a White supremacist organization with a publicly-
stated mission of murdering minorities, overthrowing the 
government, and establishing a White ethnostate, could the 
Federal Government legally open an investigation into the 
membership and financing of such an organization without 
running afoul of the First Amendment?
    Ms. Boukadoum. That is an excellent question and it is not 
a hypothetical, Congressman. It is actually a fact. We have 
seen, as my friends and colleagues at the Southern Poverty Law 
Center who are part of our coalition have highlighted time and 
time again, that there are myriad organizations that have 
absolutely espoused violence out in public on Facebook, on big 
tech platforms, that have not been taken seriously. And so, 
yes, absolutely, the financial institutions and financial 
enforcement apparatus can trace those groups and should be 
tracing those groups, frankly.
    But as I said, there has been a deprioritization of White 
nationalist violence at the expense of our collective security. 
So I would submit that there is nothing wrong, or that there is 
nothing that runs afoul of the First Amendment to go into 
investigating those types of groups.
    Mr. Torres. I want to make one observation, and let me know 
if you agree or not, but it seems to me there is a cognitive 
dissidence or double standard on the part of law enforcement. 
If you are a member of a violent enterprise like the mafia or a 
gang, you can be prosecuted under the RICO law, but if you are 
a member of a violent White supremacist enterprise, then 
somehow you are protected by the First Amendment. Can anyone on 
the panel explain the disconnect there?
    Ms. Boukadoum. I think that is an excellent point. And in 
my written testimony that we submitted for the record, we 
highlight that RICO and conspiracy statutes are extremely broad 
and should absolutely be used against particularly organized 
White nationalist groups that, as you mentioned, espoused an 
ethno-national state that wants to get rid of and kill millions 
of people, but I would love to open it up for the other 
panelists.
    Ms. Brooks. Thank you.
    Thank you for the question, Representative Torres. And I 
completely agree there. The Southern Poverty Law Center 
documents White nationalist groups today to be clear their 
mandate is to create a White ethnostate, and they have proved 
time and time, again, that they will carry out violent means to 
reach that end.
    I would also offer that the Southern Poverty Law Center has 
used RICO statutes in the course of our civil suits against 
hate and extremist groups over the past couple of decades and I 
think that--those are the laws that we mean when we say that 
there exist current statutes that law enforcement could use to 
address the real threat of domestic terrorism.
    And for me, and I agree with my colleagues in the 
Leadership Conference, it is important that we educate 
ourselves and recognize the very real threat of domestic 
terrorism. That is why the Southern Poverty Law Center supports 
the Prevention Act.
    Law, as you know, is a very, very blunt tool and we 
advocate for further education and communication between and 
coordination between the Department of Homeland Security, the 
Department of Justice, and the FBI. And they could really work 
together to lower the threat level and strengthen a partnership 
that would blunt these hate and extremist groups.
    So, thank you for the question.
    Chairman Himes. The gentleman's time has expired. The 
gentleman from Ohio, Mr. Gonzalez, is recognized for 5 minutes.
    Mr. Gonzalez of Ohio. Thank you, Mr. Chairman, and thank 
you to our panel for today's testimony. It is an important 
hearing and, Mr. Chairman, I do appreciate your comments at the 
beginning about how this shouldn't have a political lens on it, 
and I think we need to be honest with ourselves about that.
    I want to start by referencing the testimony of Dr. 
Gartenstein-Ross. You talked about, in chilling fashion, how 
extremism is poised for growth. Unfortunately, I agree with you 
100 percent, for a variety of reasons, and you also highlighted 
reciprocal radicalization, and I think that is right.
    I would argue that there is an escalating component to it 
as well, one side does one thing, the other side escalates and 
radicalizes, and there is a countermovement that does the same. 
And we are in this Ping-Pong of extremism, unfortunately.
    So with that as my first question for Dr. Gartenstein-Ross, 
in your research, did you find that any of the political 
violence from the summer--and I am not creating an equivalency, 
so let's just get that clear. What happened at the Capitol is 
far worse. I am not creating an equivalency, but I am trying to 
understand the mechanisms.
    In your eyes, did the political violence from the summer 
inspire or activate some of the far-right nationalist movements 
that we saw at the Capitol?
    Mr. Gartenstein-Ross. Thank you, sir, for that question. I 
would say it is unsettled, but I believe that the answer is 
yes, in a rather subtle way. There is a really good book 
called, ``How Terror Evolves'' by Yannick Veilleux-Lepage, 
which looks at airplane hijackings. And it argues that tactics 
evolve from one group to another regardless of ideology, and it 
even looks at criminal groups that have used airplane 
hijackings.
    I think what we saw over the course of the past year is a 
number of different mobilizations, starting with the anti-
lockdown mobilization, then there is a racial justice 
mobilization, then an anti-fascist/anarchist mobilization, and 
finally a pro-Trump steal an election mobilization, and those 
aren't all extremist mobilizations by any means, but all of 
them were mobilizations that were very powerful.
    And I think that each mobilization learned from the other 
ones, and the lesson that was learned by the time of the 
Capitol attack is that attacking a symbol of government is 
extraordinarily dramatic, and there are multiple examples of 
that from attacks on mayor's offices to autonomous zones and 
attacks on police precincts that provided some tactical guide 
for what occurred.
    So I do think that different groups, both extremist and 
nonextremist, are learning to mobilize faster than before. And 
all of them are learning from one another's tactics, and 
tactics that we may applaud today may be used tomorrow by a 
group that we utterly despise and that despises us.
    Mr. Gonzalez of Ohio. Thank you for that answer.
    And a follow-up, what role do public figures, politicians 
or otherwise, play in contributing to the violent behavior that 
we have seen across society over the last year? And how can we 
be better leaders?
    This is where I want you to lecture us and tell us how we 
have failed the American people.
    Mr. Gartenstein-Ross. I love the question. And we are in an 
extraordinarily polarized environment where even the slightest 
differences of point of view can lead to recrimination, fear, 
calls for people to be fired, different labels being thrust 
upon other people. I think now is the time for political 
leaders to show wisdom, and let me applaud this subcommittee 
for the bipartisan way that it put this hearing together.
    I applaud it for getting witnesses who can speak to both 
sides of the aisle, but I agree with the premise of the 
question that ultimately, we need to figure out how to step 
back from the precipice. We need to figure out how we live 
together within a system that we all support.
    We need to figure out how the fact that the person next to 
us disagrees on some issues doesn't cause us to think of that 
person in a binary way as being evil or beneath us or someone 
who is our enemy. We are struggling with that, and part of it 
is politicians, and part of it is the systems of communications 
that we have.
    It is a complex, multifaceted problem, but the question you 
asked, sir, is the exact right question, and politicians have 
often been a part of the problem.
    Mr. Gonzalez of Ohio. Thank you. And with my final 30 
seconds, I am going to share a brief story. I voted for 
impeachment, as most of you know, and I am a Republican. So, I 
have been the subject of threats in two different instances in 
the last year, one from the left and one from the right. And I 
will tell you my personal opinion is if this body and some of 
us on this committee don't start acting more responsibly, what 
happened in January is only the beginning, and that is up to 
us. That requires real leadership.
    And so, I thank you for your answers, and I hope we will 
heed those lessons.
    Chairman Himes. The gentleman's time has expired.
    The gentleman from Massachusetts, Mr. Lynch, is recognized 
for 5 minutes.
    Mr. Lynch. Chairman Himes, first, I want to congratulate 
you on your chairmanship. I am proud and happy to be a member 
of this subcommittee, and thanks for putting this hearing 
together. Congratulations to the ranking member as well.
    I want to talk about cryptocurrencies a little bit. The use 
of cryptocurrencies by terrorist networks, drug traffickers, 
and other illicit activities is well-documented. I know Mr. 
Glaser, we worked together when I used to Chair the Task Force 
on Terrorist Financing back in the day, but we had experts from 
FinCEN to the RAND Corporation. They have all expressed 
concerns about the use of cryptocurrencies by criminals, and we 
do have some examples that haven't been mentioned here.
    One example is the far-right group, the White supremacist 
platform, The Daily Stormer. They actually solicit donations 
from users by cryptocurrency. They use Monero, but there have 
been high-profile, high-value bitcoin transfers to a number of 
these U.S.-based groups. These are domestic far-right extremist 
wallets.
    As a matter fact, earlier this month, Treasury Secretary 
Yellen said, ``I see the promise of these new technologies, but 
I also see the reality. Cryptocurrencies have been used to 
launder the profits of online drug traffickers and they have 
also been used as a tool to finance terrorism.''
    So Mr. Glaser, and also Dr. Rogers, I think you could speak 
to this as well, how does the use of cryptocurrencies--and I 
Chair the Task Force on FinTech, and we are worried about this. 
We are trying to adopt some of these technologies, but this is 
one of those double-edged swords, I guess. How does the use of 
cryptocurrencies affect the ability of law enforcement agencies 
and research organizations and financial institutions to 
identify and trace the funding of domestic extremists?
    Mr. Glaser. Thank you for the question, Congressman Lynch, 
and it is good to see you, again, and thank you for your 
leadership on these types of issues over the years.
    After 9/11, all of the focus was on Hawala, and there was 
this notion that it was some sort of magical, mysterious system 
that nobody could comprehend and it was impossible to trace 
through. And in the end, we found out that really wasn't the 
case; it operated based on the same principles as a lot of 
other financial transfers, and it was just a matter of bringing 
it into the system in an appropriate way. And I think that 
there is an analogy between that and cryptocurrencies.
    Cryptocurrencies aren't inherently bad and, in fact, as 
Secretary Yellen said, they have a lot of useful purposes and 
could really help on issues such as financial inclusion.
    That said, they are also subject to abuse, so the challenge 
is to bring them into the system and regulate them in the 
appropriate way. I do think that the Treasury Department 
approaches it the right way through the regulation of 
exchanges, applying customer due diligence, programmatic 
requirements in suspicious activity reporting requirements to 
the exchanges which is where the cryptocurrencies are 
ultimately transferred into Fiat currency and where Fiat 
currency is transferred back into the cryptocurrency.
    Again, I highlight that FinCEN has a rule out right now, a 
proposed rule, related to unhosted wallets, which is a loophole 
in the system right now and that is a place where I think 
people should be focusing.
    But the fact is that there are some cryptocurrencies out 
there which try to design themselves along the fault lines of 
the AML/CFT restrictions. We need to look at those. We need to 
make sure that those types of cryptocurrencies are banned, but 
we also need to provide opportunities for the sector to grow in 
a supervised, regulated way as I think it is, for the most 
part, right now.
    Mr. Lynch. Wouldn't it require getting rid of the 
pseudonymist nature, where we don't have digital identities? 
Isn't that the core of the problem? And that is what the users 
or the advocates of crypto, a lot of them, cling to that; that 
they want to decentralize anonymous or pseudonymist systems. Is 
that part of the problem?
    Mr. Glaser. Yes. Anti-money-laundering, countertrust 
financing rules and regulations at the end are about 
transparency. It is about transparency in the international 
financial system and the domestic financial system. And in 
certain ironic ways, cryptocurrencies provide enhanced 
opportunities in certain ways for law enforcement agencies to 
be able to trace transactions that aren't there and sort of 
bulk transactions in the private sector.
    But, again, I come back to, [inaudible] And I think the 
point of entry is at the exchanges, which is where we are 
trying to regulate it now.
    Mr. Lynch. Thank you, Mr. Chairman.
    I yield back.
    Chairman Himes. The gentleman's time has expired. The 
gentleman from Texas, Mr. Taylor, is recognized for 5 minutes.
    Mr. Taylor. Thank you, Mr. Chairman. I appreciate this 
hearing, and I appreciate the witnesses and the expertise that 
they bring to this important topic. Domestic terrorism 
obviously is something that I think, with a little historical 
perspective--I think we remember Puerto Rican separatists 
shooting Members of Congress on the Floor of the U.S. House 
back in the 1950s, so this is a long path that we have been 
going down in trying to fight this.
    And, obviously, I was intrigued, Mr. Chairman, by your 
comments about the domestic terrorism being more difficult 
because they have First and Fourth Amendment rights.
    But I remember my own time as a Marine on the U.S./Mexican 
border contending with the Foreign Intelligence Surveillance 
Act (FISA), and the Posse Comitatus Act, dealing with the 
international component and really the PATRIOT Act, dealing 
with that and trying to figure out, well, okay, where does the 
international stop and the domestic begin, and how do we share 
data between the CIA and the FBI, and how is that legal, when 
is that legal, which, unfortunately, 9/11 really revealed to us 
we had some problems there.
    So just going down the path of making sure that we are 
sharing information across platforms at the same time, 
protecting peoples' rights, and I think that is something that 
we are all conscious of, that push/pull.
    Dr. Gartenstein-Ross, just in terms of the way you think 
about this, is there enough sharing between the FBI, the 
Department of Homeland Security, and local law enforcement? Are 
there regulatory or statutory changes that we can make at the 
congressional level to encourage information-sharing so that we 
can actually stop/prevent terrorist actions?
    Mr. Gartenstein-Ross. That is an excellent question. As you 
know, sir, DHS, one of its mandates is to share information 
with local law enforcement, which is a relatively effective 
system; although, you have had a number of times where some of 
the information shared ends up getting leaked to the press, 
which, in turn, causes controversy and then impedes sharing.
    One of the reasons why we were so slow to look at WSE 
extremism as the government relates to a 2009 controversy about 
a report on what was dubbed right-wing extremism at the time. 
So, it is not clear to me that there are specific fixes that 
can immediately leap to mind, but I will say that this is 
something that we should look into to see if there are things 
that impede the flow of information. Anything that will allow 
information to be shared more widely will be a positive.
    Mr. Taylor. Mr. Glaser, just given your experience in 
government, what would you say to that in terms of information-
sharing between--again, I saw the restriction when it went from 
international to domestic. There were definitely some walls 
that were created there in the 1970s that were knocked down a 
little bit after 9/11, but do we have those in terms of dealing 
with this problem?
    Mr. Glaser. Thank you for the question. And I agree with 
your premise that there needs to be a vibrant partnership 
between the public sector and the private sector to attack 
these sorts of issues. In fact, when I was in--
    Mr. Taylor. We will get to that in a second, but the 
question is, within the Federal Government and local law 
enforcement, are there walls that we need to break down 
statutorily or by regulation?
    Mr. Glaser. With respect to financial intelligence, I think 
that there is very good information-sharing between the Federal 
Government and the State Governments. State Governments have 
access to suspicious activity reports, so I think that there 
are probably mechanisms that we could implement to improve 
them, but they wouldn't be legislative in nature.
    Mr. Taylor. Okay. And then Ms. Boukadoum, this is something 
you are concerned about, is the role of private companies 
taking it upon themselves to report to the authorities what 
they perceive to be problematic when they are not required to 
do it, right?
    And so I am thinking recently there was an allegation that 
Bank of America went in, pulled all the data from their 
customers, and reported that to law enforcement without having 
a warrant, and that--in assisting the Fourth Amendment 
question, should the government even be willing to accept data 
that they don't have the right to get, that the Fourth 
Amendment precludes them from? Your opening statement leads me 
to believe that you are concerned about this as well.
    Ms. Boukadoum. Absolutely, Congressman. I think that civil 
liberties have to be protected, and I think that the private 
sector, Bank of America, big tech have to really make sure that 
there is a notice requirement that is provided to customers and 
also that there is, yes, a warrant from the FISA court, even 
though, it is a secret court, but there are mechanisms for 
making sure that due process and transparency to the extent 
possible are complied with.
    Mr. Taylor. Thank you.
    Mr. Chairman, I yield back.
    Chairman Himes. The gentleman yields back. The gentlewoman 
from Pennsylvania, Ms. Dean, is recognized for 5 minutes.
    Ms. Dean. Thank you, Mr. Chairman. I thank you for hosting 
this important hearing. I will get right to some questions. I 
thank all of those who are testifying today to help us 
understand this better.
    Mr. Rogers, if I could start with you, what evidence is 
there of alternative financing platforms contributing to 
expanded recruitment or radicalization of domestic terror 
groups? Do we have any evidence of alternative financing 
platforms?
    Mr. Rogers. Thank you, Congresswoman, for the question. And 
if I may clarify, by alternative financing platforms, can you 
provide more detail about exactly the sorts of platforms you 
are referring to?
    Ms. Dean. Fundraising.
    Mr. Rogers. Okay. That is sort of the core of our entire 
research, how extensively those sorts of platforms are being 
used, and it speaks to a lot of the discussion today that most 
of the financial activities not through the kind of, 
traditional banking, there is a lot of other sort of companies 
and chokepoints being involved whether you are talking about 
crowdfunding platforms--I mentioned GiveSendGo as an example, 
Rakuten Pay, all of these companies, they sit on top of the 
larger kind of payments in banking.
    At the end of the day, the money lands somewhere that is a 
more traditional bank or payment provider, but even before you 
get to those companies, there is a whole host of smaller and 
alternative, what you may call, tech companies, that are 
facilitating these payments and we outline close to 100 of them 
in our report.
    Ms. Dean. And would you say that those digital fundraising 
platforms are contributing to the diffusion of harmful 
ideologies?
    Mr. Rogers. Absolutely. As I mentioned in my testimony, not 
only are they just helping or facilitating raising funding for 
these groups, but merchandising platforms. Go to Etsy.com and 
type in, ``QAnon'', and the sale of merchandise helps further 
the ideology, kind of creates that, as I call it, that team 
jersey to help the group recruit and further whatever ideology 
they are peddling.
    Ms. Dean. Thank you. I appreciate that.
    Mr. Glaser, if I could turn to you. FinCEN, at the 
Department of the Treasury, is at the forefront of detecting 
illicit financial transactions involving potential crimes in 
terrorism, and I am thinking of, for example, advisories 
regarding possible human trafficking or drug trafficking. But 
does FinCEN provide this type of guidance related to armed 
domestic extremists or mass shooters in terms of potential 
purchase of weapons, amassing of arsenals of guns, or other 
weapons for attacks?
    Is there such an advisory alert? We are examining 
communications and gaps in communications--is there such an 
advisory around the amassing of weapons?
    Mr. Glaser. FinCEN does not currently have an advisory 
relating to domestic terrorism. I would not be surprised if 
they were working on one right now, and I think it is a great 
question. In my testimony, I specifically reference that as one 
of the things that FinCEN could be doing.
    And as I said, I wouldn't be surprised if they were working 
on one right now, but there is not currently one out there.
    Ms. Dean. There was legislation that was introduced last 
session by my friend, Representative Wexton--perhaps you are 
familiar with it--the Gun Violence Prevention Through Financial 
Intelligence Act. It was a bill in simplicity that would 
develop an advisory notification to assist financial 
institutions in detecting and then reporting suspicious or 
illegal financial activities around firearms.
    Do you think that legislation is worthy, and would be a 
step in the right direction?
    Mr. Glaser. Thank you, Congresswoman. I must admit that I 
am not familiar with that specific legislation. I will say that 
banks already have the obligation to report suspicious activity 
to FinCEN, but there are holes in it relating to illegal 
activity relating to firearms, I am sure that is something that 
should be addressed.
    Ms. Dean. Thanks so much.
    And maybe Ms. Brooks, I will go for a quick question to 
you. How can the Federal Government provide better tools or 
facilitate coordination, again, about communication with State 
law enforcement agencies, prosecutors, the Federal Government--
what should we be doing to share information more efficiently?
    Ms. Brooks. Thank you for the question. The Southern 
Poverty Law Center, of course, supports the Domestic Terrorism 
Prevention Act because it really is about improving 
communication and coordinating communication in response across 
agencies.
    Of course, it doesn't provide for additional Federal 
criminal enforcement power, but we believe that improved 
communication and coordination was the big part of the issue on 
January 6th, so we support that, just the sharing of 
information and acting upon that information.
    Thank you for the question, Representative Dean.
    Ms. Dean. Thank you.
    I yield back. Thank you, Mr. Chairman.
    Chairman Himes. The gentlewoman's time has expired. The 
gentleman from Illinois, Mr. Garcia, is recognized for 5 
minutes.
    Mr. Garcia of Illinois. Thank you, Chairman Himes and 
Ranking Member Hill, for convening this hearing, and thank you 
to the witnesses for joining us today and sharing your research 
and knowledge.
    We know that racism and right-wing extremism have long 
histories in this country. As an immigrant, I have seen it for 
most of my life. Donald Trump tapped into that from the very 
start of his campaign, and what happened here on January 6th is 
a symptom of something very serious.
    Like many of you, I was locked down in my office that 
afternoon. I didn't know whether or not armed militia had 
entered my office building. I didn't know if they were looking 
for me as a proud immigrant, Mexican-American Congressman, but 
I knew they wanted to stop a Democrat from being elected 
President.
    It is easy to say that the people who stormed the Capitol 
last month represent a small fringe in our politics, but they 
have allies and friends in high places.
    I have a couple of questions. Ms. Brooks, in your 
testimony, you gave us a good timeline of how racist extremism 
has connected to party politics. Could you talk a little more 
about how the radical right entered the mainstream and what we 
should be worried about moving forward?
    Ms. Brooks. Thank you so much for the question. As the 
Southern Poverty Law Center has documented over the last couple 
of decades, there has been an increase in the number of active 
hate groups in the United States. We found about 10 years ago, 
maybe 15 years ago, that that increase is directly connected to 
the shifting demographics within the United States.
    And so, the decrease in the White population serving as a 
numeric majority has served to create fear and anxiety in the 
White population. As we saw with the ascension of President 
Obama, that was kind of a peak moment, and an example, if you 
will, for Whites who were beginning to think that they were 
being displaced, and feeding into a White nationalist trope 
around the great replacement or White genocide.
    So, we have seen an increase in that rhetoric. What we saw 
over the last 6 years was an increase in that rhetoric that was 
echoed from the highest office in the country, from the 
President, and that served to kind of fuel and carry the 
disinformation, fear, and anxiety to this fever-pitch position 
in which we find ourselves in today.
    Mr. Garcia of Illinois. Thank you.
    Dr. Rogers, you studied radicalization and terrorism in a 
number of countries and your report on bankrolling bigotry 
mentioned that far-right groups use the 501(c)(3) nonprofit 
status to look legitimate. What role does money in our 
political system play in fanning the flames of right-wing 
extremism? Do all of these nonprofits and shell companies make 
it harder to track their role?
    Mr. Rogers. Thank you, Congressman, for the question. For 
starters, I am not an expert on tax exempt organizations, and I 
am certainly happy to point you to ones that I have worked with 
in the past.
    But it is my understanding that the abuse by some of the 
charity and the nonprofit tax-exempt rules has grown over time 
as political campaigns and what-not have become more expensive 
as a way to shield identities involved in political donations 
and things like that.
    And so, that abuse has grown over the past decades, while 
at the same time, the resources for enforcing the 501(c)(3) and 
501(c)(4) rules to say that if a group applies as a supposedly 
educational charity, to enforce that they actually are engaging 
in educational charitable activities and not say, secretly a 
violent militia, the resources that the IRS has to fulfill that 
regulatory compliance role have decreased over time for a whole 
host of reasons.
    So one of our recommendations that we have taken from one 
of our experts is to actually break out that function from the 
IRS. The IRS is ultimately a revenue-generating organization, 
and this part of the IRS is not, by definition, revenue-
generating, so it tends to be kind of ignored.
    If you took that regulatory function out, much as the 
charity commission in the U.K. as an independent organization 
to fulfill that role, that might help with the compliance and 
the enforcement problem. So, just one idea related to that.
    Mr. Garcia of Illinois. Thank you very much.
    Mr. Chairman, I yield back.
    Chairman Himes. The gentleman yields back. And the 
gentleman from Massachusetts, Mr. Auchincloss, is recognized 
for 5 minutes.
    Mr. Auchincloss. Thank you, Mr. Chairman, and thanks to 
those who are testifying today. As part of our ongoing 
investigation into the insurrectionist attack on the Capitol on 
January 6th, the attack laid bare our vulnerability to domestic 
terrorism, and we need to examine solutions to stop future 
attacks before they happen.
    I believe it would be a grave mistake, however, to maintain 
permanent fencing around our Capitol. Constituents, advocates, 
have the right to visit the home of our democracy and speak 
with their Representatives to share their thoughts, agreements, 
and concerns. We need innovative tools to root out domestic 
terrorism, and protect Members, staff, and visitors without 
turning this building into a fortress surrounded by fences 
topped with barbed wire.
    And, indeed, we also need to find ways to protect places of 
worship, including in my own district, without them having to 
resort to a military posture as well, in particular, Jewish 
places of worship.
    I represent one of the most densely-populated Jewish 
districts in the country, and I know that my Jewish 
constituents who go to places of worship are increasingly on 
edge and increasingly concerned about the threats of domestic 
terrorism targeted and fueled by anti-Semitism.
    I wonder if, first, Ms. Brooks, and then, Mr. Rogers, might 
speak for 30 seconds to a minute each about the intersection 
between anti-Semitism and domestic terrorism in this country 
and whether they have seen a rise in both intent and actions 
targeted against Jewish people.
    Ms. Brooks. Thank you so much for the question. And we 
don't talk about this enough, but there is a direct link and a 
connection between White nationalism, White supremacy, and 
anti-Semitism. It should not be separated at all. There has 
been an increase in anti-Semitism in this country and globally 
for the last couple of decades, and people have failed to pay 
attention.
    We have these major violent events like the Tree of Life 
Synagogue, like what happened in Escondido, and then we move 
on, but we are not connecting the dots. We are in this 
together, and a White supremacist agenda would separate 
everyone from who they are. So to be clear, we should stand 
together against White nationalism and anti-Semitism in support 
of the Jewish population. Thank you for the question.
    Mr. Auchincloss. I just want to state, for the record, how 
much I agree with standing together. I think the Jewish people, 
as well as my African-American constituents know that where 
there is conspiracy theorizing, where there is extremism, it is 
just a matter of time before they come for Black Americans and 
for Jewish Americans, such has been our history. So, thank you 
for saying that.
    Mr. Rogers, I welcome your thoughts as well.
    Mr. Rogers. Thank you, Congressman. And I could not agree 
more with both your thoughts and Ms. Brooks, your statement on 
the subject, another subject that I am passionate about as 
well. As you say, if history is any guide, hate is hate, and it 
always comes for people of color and the Jewish community as 
well.
    One other point I would add is that in many ways, the QAnon 
conspiracy theory phenomenon is itself a kind of remix, if you 
will, or a mash-up of historically all of the various sorts of 
anti-Semitic Jewish blood libels. The idea of the cabal at the 
top, et cetera, et cetera, that if not explicit, is a very 
thinly veiled version of the same blood libel that has been 
circulating for a hundred, if not, hundreds of years.
    And so, yes, I think they go very much hand in hand whether 
explicit or not, and I think they are linked and solidarity is 
obviously of utmost importance.
    Mr. Auchincloss. Mr. Rogers, are there particular actions 
that you would recommend Congress pursue relative to anti-
Semitism and the intersection of anti-Semitism and domestic 
terrorism, in particular, and the spread of disinformation 
about that?
    Mr. Rogers. I think there are a number of regulatory fronts 
that all go to the general problem of disinformation as a 
whole, and I don't know that we have the time to get into all 
of them here, but I think they certainly fall into three big 
categories, with the one most relevant to today's discussion 
being this idea of government platform liability, that our data 
is showing what a key role these sorts of platforms play in 
facilitating the activities of these groups.
    And the fact that the liability is so nebulous or 
nonexistent through things like Section 230 and what-not, what 
we found is that there are already policies in place against 
all of these hate and extremist groups, but they are just 
simply not enforced.
    So updating that kind of platform liability to help drive 
enforcement, I think is one of the key areas that we can focus 
on.
    Mr. Auchincloss. Slightly--
    Chairman Himes. The gentleman's time has expired.
    Mr. Auchincloss. Okay. Thanks.
    Chairman Himes. I believe that every present member of the 
subcommittee has had an opportunity to ask questions. If that 
is incorrect, speak up now or forever hold your peace.
    Hearing no one, I would like to thank our witnesses for 
their testimony today and for an excellent, excellent 
discussion.
    The Chair notes that some Members may have additional 
questions for this panel, which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 5 legislative days for Members to submit written questions 
to these witnesses and to place their responses in the record. 
Also, without objection, Members will have 5 legislative days 
to submit extraneous materials to the Chair for inclusion in 
the record.
    I ask our witnesses to please respond as promptly as you 
are able, and I noted a couple of questions that sadly were cut 
off by the timer, and I will ask the staff to facilitate that.
    With that, I will thank our excellent witnesses one more 
time, and the hearing is adjourned.
    [Whereupon, at 11:51 a.m., the hearing was adjourned.]

                            A P P E N D I X



                           February 25, 2021


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

</pre></body></html>
